<html>
<title> - HUMAN RIGHTS AT HOME: IMPLICATIONS. FOR U.S. LEADERSHIP</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                   HUMAN RIGHTS AT HOME: IMPLICATIONS.
                          FOR U.S. LEADERSHIP

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 2, 2020

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-2-6]
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             


                       Available via www.csce.gov
                       
                       
                       
                             ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
40-782 PDF            WASHINGTON : 2021                       
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

ALCEE L. HASTINGS, Florida              ROGER F. WICKER, Mississippi,
Chairman                                Co-Chairman
JOE WILSON, North Carolina              BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama             JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri            CORY GARDNER, Colorado
STEVE COHEN, Tennessee                  MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania         JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina          THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin                   TOM UDALL, New Mexico
MARC VEASEY, Texas                      SHELDON WHITEHOUSE, Rhode Island

                                      
                                  

                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, to be appointed
                Department of Commerce, to be appointed
                 Department of Defense, to be appointed



                                  [ii]
                                  
                                  
                   HUMAN RIGHTS AT HOME: IMPLICATIONS

                          FOR U.S. LEADERSHIP

                              ----------                              

                              July 2, 2020
                             COMMISSIONERS

                                                                   Page
Hon. Emanuel Cleaver II, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Gwen Moore, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    10

Hon. Sheldon Whitehouse, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    11

                          OTHER MEMBER PRESENT

Hon. Sheila Jackson Lee, Member of Congress......................    12

                        COMMISSION STAFF PRESENT

Alex T. Johnson, Chief of Staff, Commission on Security and 
  Cooperation in Europe..........................................     1

                               WITNESSES

Nkechi Taifa, Founding Principal & CEO, The Taifa Group, LLC.....     3

Malcolm Momodou Jallow, Member of Parliament (Sweden)............     5

Ambassador (ret.) Ian Kelly, Former U.S. Permanent Representative 
  to the Organization for Security and Cooperation in Europe 
  (OSCE).........................................................     8

                                APPENDIX

Prepared statement of Hon. Benjamin L. Cardin....................    20

Prepared statement of Nkechi Taifa...............................    21

Prepared statement of Malcolm Momodou Jallow.....................    33

Prepared statement of Ambassador Ian Kelly.......................    36


                   HUMAN RIGHTS AT HOME: IMPLICATIONS

                          FOR U.S. LEADERSHIP

                              ----------                              


                              July 2, 2020

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 11:08 a.m. via videoconference, 
Hon. Emanuel Cleaver II, Commissioner, Commission on Security 
and Cooperation in Europe, presiding.
    Commissioners present: Hon. Emanuel Cleaver II, 
Commissioner, Commission on Security and Cooperation in Europe; 
Hon. Gwen Moore, Commissioner, Commission on Security and 
Cooperation in Europe; and Hon. Sheldon Whitehouse, 
Commissioner, Commission on Security and Cooperation in Europe.
    Other Member present: Hon. Sheila Jackson Lee, Member of 
Congress.
    Witnesses present: Nkechi Taifa, Founding Principal & CEO, 
The Taifa Group, LLC; Malcolm Momodou Jallow, Member of 
Parliament (Sweden); and Ambassador (ret.) Ian Kelly, Former 
U.S. Permanent Representative to the Organization for Security 
and Cooperation in Europe (OSCE).

 HON. EMANUEL CLEAVER II, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cleaver. [In progress]----Alex Johnson to share the 
modalities of this hearing.

   ALEX JOHNSON, CHIEF OF STAFF, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Johnson. Thank you, Mr. Chairman. Thank you for joining 
us for today's first-ever remote hearing of the Commission on 
Security and Cooperation in Europe, also known as thE U.S. 
Helsinki Commission. This hearing is being conducted in 
compliance with House Resolution 965, which provides for 
official remote proceedings during the COVID-19 pandemic. We 
have decided to hold this hearing remotely to protect the 
health and ensure the safety of our witnesses, members, staff, 
and the public. This hearing is being broadcast live on our 
website at www.CSCE.gov, and on our YouTube channel at 
www.YouTube.com/HelsinkiCommission.
    Before we begin, I would like to review a few housekeeping 
items for our members and witnesses. Members and witnesses are 
asked to keep themselves muted when not actively engaging in 
the discussion to limit background noise, keep themselves muted 
for the purposes of limited echoes or other disruptions. 
Members and witnesses are responsible for unmuting themselves 
when they seek recognition or when they are recognized by the 
chair.
    Please remember that there is often a short delay in muting 
or unmuting your microphone. Members and witnesses should allow 
sufficient time before speaking to ensure their microphones 
have been successfully unmuted and the last speaker has 
finished completely. Members and witnesses must keep their 
cameras on at all times during the hearing. If you need to step 
away for any reason please make sure you leave your camera on. 
Finally, the chair may declare a recess at any time to address 
technical difficulties with these remote proceedings. If you 
personally encounter technical difficulties, please contact our 
tech support channels provided prior to the hearing. Our staff 
will resolve any issues for you.
    The hearing chair will now proceed with his opening 
statement, to be followed by opening statements by all 
witnesses. Commissioners and guest members may then offer 
statements or ask questions in the following general discussion 
with the witnesses. I yield back to the chair.
    Mr. Cleaver. Thank you. I recognize myself for an opening 
statement.
    When the United States signed the Helsinki Final Act, this 
country, along with 34 other nations, explicitly recognized 
respect for human rights as an essential factor for the 
attainment of peace, justice, and cooperation among nations. 
Moreover, the Helsinki Commission, which was created 1 year 
after the Helsinki Final Act was adopted, was mandated by law 
to monitor the acts of the signatories which reflect compliance 
with or violation of the articles of the Helsinki Final Act, 
with particular regard to the provisions relating to human 
rights and cooperation in humanitarian fields.
    The United States has long been a champion of human rights 
and democracy in our foreign policy. Many of the OSCE's 
groundbreaking commitments were actually spearheaded by the 
United States, including those relating to anti-Semitism, 
freedom of religion, free elections, and the rule of law, to 
name only a few. Most of the time, the Helsinki Commission 
focuses on those issues in countries where there may be 
particular concerns. Sometimes we engage with countries where 
circumstances create windows of opportunity or historic 
inflection points. Our goal is always to encourage positive 
change and better implementation of Helsinki commitments. Today 
we look inward as we examine the Black Lives Matter protests 
and related domestic compliance issues in the context of our 
OSCE human dimensions commitments and implications for U.S. 
foreign policy.
    The death of George Floyd was a tragedy, and the video of 
his fatal encounter with police was sickening to witnesses. 
Thus, the American people, and later the entire world, 
responded. The freedom with which Americans were able to 
respond to this tragedy is at the root of this hearing. If 
there is no respect for the rights of Americans to address 
wounds left open by centuries-old systemic racism we cannot 
achieve necessary healing, nor will we have the standing to 
advocate for fundamental freedoms abroad. We must practice what 
we preach.
    I'm working with my colleagues in the House of 
Representatives on legislative measures to meaningfully address 
systematic racism and policing, curb police brutality and 
racial profiling, and ultimately save lives. These policies to 
achieve these objectives are the jurisdiction of other 
committees; however, we have an opportunity through the 
Helsinki Commission to reflect on the nexus of our 
international commitments in terms of our standing in the 
world.
    Clearly the U.S. record has been on full display around the 
globe in recent weeks, beginning with the 8 minutes and 46 
seconds of George Floyd's death on May 25th, and the protests 
which followed. In fact, thanks to the unprecedented reach of 
modern technology, the world has been able to watch in real 
time.
    I will keep the record of this hearing open for 48 hours, 
and any additional information, statements will be accepted.
    Now I would like to introduce our witnesses for today's 
hearing. First, we will hear from Nkechi Taifa, who is the 
founding principal and CEO of Taifa Group, LLC, and will also 
be testifying on behalf of the Justice Roundtable and the 
Center for Justice at Columbia University. Ms. Taifa will 
provide a scene-setting overview of the underlying human rights 
and democracy issues that have been fueling ongoing protests in 
the United States.
    After Ms. Taifa, we will hear from Mr. Momodou Malcolm 
Jallow. Mr. Jallow is a member of the Swedish Parliament and 
also serves as the Council of Europe Parliamentary Assembly 
General Rapporteur on Racism and Intolerance. Mr. Jallow will 
help us understand how the issues in the United States are 
resonating in Europe, and the shared challenges we face 
combating racism and intolerance in the transatlantic 
community.
    Finally, we will hear from Ambassador Ian Kelly. Ambassador 
Kelly served as the head of the U.S. Mission to the OSCE from 
2010 to 2013--excuse me, and as a spokesperson for the 
Department of State before that. Ambassador Kelly, you're well-
versed in matters related to the OSCE, the way in which human 
rights and democracy issues are raised in that forum, how U.S. 
compliance with OSCE commitments may be raised in the OSCE, and 
how those issues impact U.S. foreign policy leadership.
    I'd like to thank all of you for agreeing to participate 
with us today. I give the floor now to Ms. Taifa.

 MS. NKECHI TAIFA, FOUNDING PRINCIPAL & CEO, THE TAFIA GROUP, 
                              LLC

    Ms. Taifa. Thank you so very much, Chairman Cleaver, for 
convening this critical Helsinki Commission hearing on ``Human 
Rights at Home: Implications for U.S. Global Leadership.''
    And thank you for this opportunity to testify this morning 
on behalf of my company, The Taifa Group, as well as the 
Justice Roundtable, which I convene, and the Center for Justice 
at Columbia University, where I serve as senior fellow. In 
addition to the above, I'm also a commissioner on the National 
African American Reparations Commission, convened by the 
Institute of the Black World 21st Century, and am a founding 
member of N'COBRA, the National Coalition of Blacks for 
Reparations in America.
    So one of the best explanations for the coast-to-coast 
protests in the wake of the police killings of George Floyd, 
Breonna Taylor, and others can be encapsulated by a poem by 
Langston Hughes. ``What happens to a dream deferred?/ Does it 
dry up like a raisin in the sun/ Or fester like a sore, and 
then run/ Does it stink like rotten meat/ Or crust and sugar 
over, like a syrupy sweet?/ Maybe it just sags like a heavy 
load/ Or does it explode?''
    This poem literally suggests that unrealized dreams can 
wreak havoc and lead to anger, resentment, and despair. When we 
see young people in the United States taking to the streets in 
protest, we are seeing the overflow of dreams deferred--dreams 
of freedom, equality, and justice. Dreams that have been 
tarnished, if not obliterated, by the reality of structural 
racism, bolstered by White supremacy.
    We have just passed the mid-mark of the International 
Decade for People of African Descent. And for centuries, people 
of African descent in the United States have not only dreamed 
of justice but have demanded it. We have urged the country to 
provide not even grandiose opportunities, but just basic human 
rights that protect our life and liberty. The response? 
Systemic racism, through which we suffer through decreased life 
expectancy rates, health disparities, economic inequality, mass 
incarceration and more.
    Anti-slavery abolitionist Frederick Douglass once said, 
``Power concedes nothing without a demand.'' And when we see 
young people in the streets, we are not only seeing protest, we 
are seeing demand. We are seeing the outpouring of decades of 
deferred dreams.
    How does change happen? There is usually a triggering 
event, representing the tip of an iceberg that, in the context 
of Black people in the United States, has been building for 
centuries. And then, a cataclysmic event that explodes. And 
tragic as it was, the explosion resulting from George Floyd's 
death represented only the tip of Black people's demands for 
justice.
    The deferred dream exploded with Emmett Till, whose brutal 
1955 murder shocked the nation. It exploded with the senseless 
slayings of Trayvon Martin and Michael Brown, Eric Garner and 
Philando Castile, Tamir Rice, Rekia Boyd, Freddie Gray and 
Breonna Taylor, Ahmaud Arbery, Rayshard Brooks. The list 
seemingly grows daily. With each death of a Black person by 
police or racist Whites, with each affront to voting rights, 
with each health disparity, with each trip down the school-to-
prison pipeline, with each widening of the Black/White wealth 
gap, with each house pilfered by redlining, with each 
intergenerationally transmitted traumatic injury, there was and 
is a demand for justice.
    The U.S. Government has failed to protect Black people from 
systemic racism and police violence. Advancing societies that 
are safe, inclusive, and equitable is central to the work of 
the Helsinki Commission. The international community must bear 
witness. The United States must not be above scrutiny. It must 
meet its commitments, review its own record, and be open to 
criticism. It is incumbent that this country engage in candid 
self-assessment, if it wishes to legitimately demand a similar 
level of reflection from other OSCE participating States.
    Similarly, the United States must fully embrace human 
rights conventions that it is a party to and eliminate 
limitations to [their] use in U.S. courts. These include the 
Convention on the Elimination of All Forms of Racial 
Discrimination, the Convention Against Torture, the Convention 
on Political and Human Rights, the Office of the High 
Commissioner's Basic Principles on the Use of Firearms by Law 
Enforcement Officials, and the Convention on the Prevention and 
Punishment of the Crime of Genocide.
    Black people in the United States have dissented many times 
in the past. And, once, again, they are visible in the streets, 
showing that Black lives do indeed matter. Policies that once 
seemed radical now appear more palatable. Where we once spoke 
of reform, we now demand transformation. The blueprint is still 
being formulated, and no one will leave this moment without 
having been changed. What we are witnessing today is the 
unprecedented possibility for change, and the unprecedented 
possibility for the dream to expand, and not explode.
    Thank you very much for this opportunity to testify. I have 
submitted my full testimony for the record, which relies 
heavily upon previous works I have authored relative to the use 
of international human rights treaties applied to the United 
States.
    Mr. Cleaver. Thank you, Ms. Taifa, for your testimony.
    I now recognize Mr. Jallow for 5 minutes. Mr. Jallow you 
are recognized now for 5 minutes.

   MR. MALCOLM MOMODOU JALLOW, MEMBER OF PARLIAMENT (SWEDEN)

    Mr. Jallow. Can you hear me, sir?
    Mr. Cleaver. Yes. Please.
    Mr. Jallow. Thank you. Thank you very much. Thank you very 
much, Chairman Cleaver, for giving me this opportunity to speak 
at this very important hearing on the topic--on this very 
important topic, ``Human Rights at Home: Implications for U.S. 
Leadership.''
    I'm going to be speaking in my capacity as a member of the 
Council of Europe and the rapporteur responsible for combating 
racism and intolerance. In this assembly that I'm sitting at, I 
have the opportunity to exchange regularly with 
parliamentarians from 47 European countries, in which the 
United States also has an observatory status.
    The political developments in the U.S., United States, 
today have a significant socioeconomic and political impact on 
the rest of the world, especially among member States of the 
Parliamentary Assembly of the Council of Europe. There is very 
good reason for concern about the unfolding grave human rights 
crisis in the United States, partly as a result of the systemic 
brutal police killings of Black people, but also the use of 
state-sanctioned excessive force and suppression of peaceful 
protesters. These are clear violations of United States 
obligations under international law.
    The current government and administration has, within a 
short period of time, completely eroded the authority of the 
United States as a standard bearer, and thereby undermined the 
legitimacy of the so-called United States global leadership. 
One cannot exercise effective soft power without legitimacy. 
The isolationist foreign policy direction, the nationalist 
rhetoric, and the blatant noncompliance to the international 
human rights standards only accelerate the decline in 
confidence from the rest of the world in the United States.
    We have had a series of evidence of structural and 
institutional racism and racist policing fueled by historical 
abuses and negative stereotyping, leading to the exclusion and 
dehumanization of Black people in the United States. However, 
this particular murder of George Floyd has become a clear 
manifestation and a tipping point for what many, including many 
Europeans, perceive as state-
sanctioned racism and blatant violation of the civil and human 
rights of Black people.
    What we have seen in the U.S. does not only illustrate the 
deep rooted and historical systemic injustice against Black 
people, it also clearly manifests the extent to which White 
supremacy ideologies are normalized. What we are seeing is a 
manifestation of a democracy in crisis. And if this were 
happening in any other part of the world, the United States and 
other Western countries would be demanding a regime change.
    It is remarkable, however, how much time it took and how 
much pressure from the Black community that was required for 
the global leadership to react. When leaders sow the seeds of 
hatred and stoke the flames of racist violence, we legitimize 
intolerance and bigotry. We create division rather than unite 
people. And most importantly, we undermine the fundamental 
values of democracy, human rights, and the rule of law.
    In fact, we as politicians and leaders, we have both a 
political obligation and a moral responsibility to refrain from 
using hate speech and stigmatizing language, and to condemn 
promptly its use by others. Our silence may be interpreted as 
approval or support. The enhanced protection of freedom of 
expression that we, politicians, and leaders enjoy also 
strengthens our responsibility in this area.
    Structural, and institutional, and systemic racism--
including racist violence--is not confined only to the 
boundaries of the United States. It is also very much present 
in Europe. Over the last decade, we have seen an increase both 
in gravity and number in the manifestation of racism in all its 
forms in Europe. The effects of governments' failure to devise 
and implement adequate policies on social cohesion, diversity, 
migration, and social inclusion have triggered this upsurge, 
which has been amplified by the increasing use of internet and 
social media.
    The dimension, gravity, and frequency of their 
manifestation are of great concern and urgency. The urgency 
becomes even more acute considering these phenomena have 
repercussions that go well beyond the single individuals that 
are directly targeted. They affect entire communities and they 
create divides in society, affecting human rights and social 
cohesion. And they erode even further the trust in public 
authority, the rule of law and ultimately democracy.
    In addition, issues of race relations deeply affect the 
conduct of our foreign policy relations. The European project 
has an antidiscrimination, antiracist dimension to it, with a 
fundamental commitment to ensuring that we learn the lessons of 
the Holocaust and past European divisions through pursuit of 
human rights for all. However, this project appears to be 
failing with regard to Black Europeans. The pain and 
denigration of Black people has a historical context that we 
must remember. Hence, the U.N. Decade on People of African 
Descent and its three focus areas: Recognition, Justice, and 
Development.
    The images of the brutal and tragic death of George Floyd 
triggered a protest movement not only in the United States, but 
around the world. The scale and intensity of the protests 
illustrates a deep sense of frustration and pain that Europe, 
for the longest time, had shown no regard for. The usual 
silence and exceptional entitlements from European leaders are 
no more working, as this is not a moment. It is a movement, a 
movement that is deeply and permanently committed to justice, 
human rights, and the rule of law. Not in words, but also in 
action.
    So we must act quickly, firmly, and collectively, because 
when we choose to be silent in the face of hatred, bigotry, and 
racism, we choose to be complacent, thereby undermining the 
fundamental values of human rights, democracy, and the rule of 
law. As the United States enjoyed status of observer in the 
Council of Europe and member State of the United Nations, I 
would like to emphasize the recommendations and language in 
United Nations Resolution HRC/43, in establishing an 
Independent International Commission of Inquiry.
    And this Commission of Inquiry will establish the facts and 
circumstances relating to the systemic racism and violation of 
the international human rights law. And this is against 
Africans and people of African descent in the United States. It 
will also examine Federal, and state, and local government 
responses to peaceful protest, including the alleged use of 
excessive force against protesters, bystanders, and 
journalists. I would also--as you know, racism does not spare 
any level of society. And no institutions are perhaps immune to 
it.
    The Parliamentary Assembly of the Council of Europe, of 
which I am a member, is particularly concerned about racial 
profiling and racist behavior, and practices within the police 
against visible minorities have a negative impact on public 
opinion and can increase stereotyping and prejudice. So to 
acknowledge the existence of this problem is the first step. We 
need to do that. There can be no impunity for manifestation of 
racism within or by the police. And police officers must be 
held accountable individually for that behavior. And to do 
this, we also have to establish independent police complaint 
mechanisms where they do not exist yet, allocate appropriate 
means for their functioning, and ensure that sanctions are 
imposed on police officers following a racist incident.
    And last, we know intolerance, racism, and xenophobia are 
fed by stereotypes and prejudices which must be prevented and 
eradicated at every level. So the Council of Europe 
Parliamentary Assembly urges political leaders not to use fear 
to fuel their electoral campaigns, but to continually reaffirm 
the democratic values of our societies, of respect for human 
rights and human dignity at all times.
    Thank you very much.
    Mr. Cleaver. Thank you, Mr. Jallow.
    And finally, we will hear from Ambassador Ian Kelly. 
Ambassador Kelly, you're now recognized for 5 minutes.

      AMBASSADOR (RET.) IAN KELLY, FORMER U.S. PERMANENT 
REPRESENTATIVE TO THE ORGANIZATION FOR SECURITY AND COOPERATION 
                        IN EUROPE (OSCE)

    Amb. Kelly. Well, thank you, Mr. Chairman. I'd like to 
concentrate on the impact of recent events on U.S. global 
leadership, particularly within the OSCE.
    And among the many contributions of the Helsinki process to 
international peace, perhaps the greatest was the consensus 
that security among states depends on respect for human rights 
within states. We support the OSCE because we know that a world 
where fundamental freedoms are upheld is a safer world. We 
support the OSCE because we know that a world--as I say, where 
freedoms are upheld is a safer world. As OSCE leaders agreed in 
the Charter of Paris in 1990, observance and full exercise of 
human rights are the foundation of freedom, justice, and peace.
    At the OSCE, to advance that cause, the U.S. has worked 
together with our allies in Europe and Canada to support human 
rights. In my time at the OSCE, the greatest challenges to the 
cause were the political use of judiciary and law enforcement, 
government intimidation of critical media and civil society, 
and the lack of checks and balances against the power of the 
executive. Recent events have shown that America as a model for 
fighting against the first two tendencies has been greatly 
tarnished. But I think we can still be a beacon for promoting 
separation of powers to ensure transparency and accountability.
    The recent beatings of protestors in the U.S. served as an 
uncomfortable reminder, for me, of events in Minsk in 2010, 
when police used violence to break up rallies against the 
government. It caused us and our allies at the OSCE to invoke 
something called the Moscow Mechanism, where a group of OSCE 
countries can appoint a special representative to investigate 
abuse against those exercising their basic freedoms. We knew 
that Russia and others would veto the recommendations of the 
report. We invoked the Moscow Mechanism because we wanted to 
send a strong signal, that we found the use of violence to 
quell dissent unacceptable.
    A decade later, of course, we've seen in our country the 
excessive use of force against protestors who are peaceably 
assembling. Perhaps the most prominent example was in Lafayette 
Square. There, authorities put a higher priority on clearing 
peaceful protestors for a photo op than on allowing them to 
exercise their basic rights. I don't want to compare our 
response to protest to that of the Lukashenko regime, but until 
the highest levels of our government condemn what happened in 
Lafayette Square and elsewhere, we've lost much of our moral 
authority to call other countries to account.
    In my last post, as Ambassador to Georgia, I experienced in 
dramatic fashion how attacks on critical media in the U.S. have 
eroded our power to persuade other countries to protect free 
speech. A few months before I retired in early 2018, a Georgian 
court was close to ruling on replacing the managing editor of 
the leading opposition television station with someone more 
amenable to the government. I met with a senior official to try 
to convince that individual to speak out in favor of 
maintaining critical voices in the media. To support my 
argument, I drew upon many of the OSCE principles, such as the 
importance of free speech to ensuring strong, accountable 
government.
    I then deployed what I thought was my strongest argument, 
that Tbilisi needed Washington's support, and that Washington 
would have a hard time understanding why the Georgian 
Government wouldn't keep--wouldn't support keeping its critics 
on the air. The response was both illuminating and deflating. 
The official looked at me, smiled, and said, ``Really, Ian? You 
really think Washington's going to have a problem with fake 
news going off the air?'' A few months after I left, the court 
did order new management at the station, and Georgia lost a 
critical platform for keeping government accountable.
    Given what is happening here in the U.S., I can imagine how 
difficult it is for my former colleagues in the field now to 
promote human rights. With the recent gross abuse of police 
powers, characterization of journalists as enemies of the 
people over the last few years, diplomats' powers of persuasion 
have been greatly eroded. But they should still have hope in 
the power of American institutions.
    When I tell my students about my distress at my own 
government's abuses over the years--such as the CIA black sites 
and the torture at Abu Ghraib--they ask me how I was able to 
continue to work for such an administration. I tell them it's 
because of my deep belief in the system's ability to 
investigate abuse, correct itself, and ultimately do the right 
thing.
    While we look to right our own country's wrongs, we cannot 
avert our eyes from assaults on Helsinki principles elsewhere 
in the OSCE space. We should be particularly concerned about 
increasing centralization, and personalization, of political 
power. Just yesterday, Russia concluded a plebiscite on an 
amendment that could allow Putin to stay in power until 2036. 
And then there's the pandemic. It attacked at a time when 
democracy was already in retreat. Even before COVID-19, Freedom 
House noted that since 2006 democracy has been in decline in 25 
of 41 established democracies. The challenge of curbing the 
pandemic has emboldened authoritarian rulers. It has given them 
another excuse to curb fundamental rights, to remove 
institutional checks on their power, and silence those who 
dissent.
    As Dr. King wrote, ``Injustice anywhere is a threat to 
justice everywhere. We are caught in an inescapable network of 
mutuality, tied in a single garment of destiny. Whatever 
affects one directly, affects all indirectly.''
    So when we redress wrongs, we make our country stronger. We 
restore our position of leadership in a world where democracy 
needs champions. And by so doing, we make the world safer.
    Thank you, Mr. Chairman, for inviting me to participate in 
this hearing today.
    Mr. Cleaver. Thank you very much, Ambassador.
    We will now have participation from the members. We'll 
begin with the gentlewoman from Wisconsin, Ms. Gwen Moore.

   HON. GWEN MOORE, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Moore. Thank you so much, Mr. Chairman. And thank all 
of our witnesses for bearing witness to this international 
phenomenon. I just want to say to Ms. Taifa, I bring you 
greetings from Janette Herrera, who lives here in Milwaukee, 
Wisconsin, an N'COBRA member. And she--I spoke with her early 
this morning to make sure I send you her peace and blessings. 
And she told me you were dynamic, but I just was not prepared 
for all that.
    And of course, my good friend, the parliamentarian from 
Sweden, we have met many times before. It is really great to 
see you. Can't wait until we can get back and forth across the 
pond. I'm not proud of the fact that Europe says keep all you 
nasty--all you nasty people stay home, because you haven't 
really observed the best practices with regard to COVID-19. But 
it's really good to be here.
    I guess I want--and of course, Ambassador Kelly, the Moscow 
Mechanism, that we always have to respect our Russian 
counterparts. But we got to always have a check. And we 
appreciate your service and your observations with the OSCE 
engagement.
    I just want to commend the European Union, the United 
Nations, all of these international agencies who are joining in 
in creating the international, global attention to the abuses 
in the United States and, indeed, joining a global family of 
these same phenomenon.
    And of course, it was a very big--the EU report was very 
comprehensive, and all of the Helsinki commissioners from the 
United States--Mr. Hastings, of course, our leader, our chair 
today Mr. Cleaver, Mr. Veasey and I all are writing a letter to 
the European Union asking that they give us a path forward, do 
a resolution in terms of adopting--not only adopting this, but 
putting an action plan in place to make this happen.
    And here in the United States not only do we have our 
commissioners signing onto that, but there is a letter that we 
are having Members of Congress who are signing on. I'm looking 
for it right now. Signing onto it, including Senator Booker, 
and Karen Bass, who is the subcommittee chair on Africa, 
Representative Greg Meeks, who is on the Foreign Affairs 
committee as well. And we have Ted Deutch, who's the Foreign 
Affairs Subcommittee on International Terrorism, Eleanor Holmes 
Norton, Bobby Rush, of course Sheila Jackson Lee, Barbara Lee, 
Donald Payne, Frederica Wilson, Terri Sewell, Yvette Clarke, 
Congresswoman Watson Coleman, and, of course, all of the 
commissioners. So we are delighted our international partners 
are weighing in on this.
    So I don't want the chairman to gavel me, so let me get to 
some questions. The U.N. declared 2015 to 2025 a declaration of 
Decade of Persons of African Descent, with the intent of 
strengthening national actions to ensure equal respect for the 
rights of people of African descent. And of course, the OSCE is 
a regional organization under Chapter 7 of the U.N. Charter. 
Now we're just, like, halfway through the decade. Some of us 
were kind of getting worried that nothing was happening.
    And so, you know, Momodou, you suggested that this was an 
inflection point. And there's a debate about whether or not 
this is just a moment or a movement. So I guess I would ask 
both you and Ms. Taifa, do you--what do you think it will take 
to make this a sustainable movement, as opposed to just a 
moment?
    Ms. Taifa. So it definitely needs to be a sustainable 
movement and not just a moment. And I think that this moment 
that we're in, people should take the opportunity to really 
look at things, such as the International Decade for People of 
African Descent, when in this country it has not been as 
visible as around the world. [Laughs.] I hope that people take 
this moment to look at the movement for reparations that is 
sweeping the world, actually, and really make some program 
changes.
    Mr. Cleaver. I'm going to--Mr. Jallow, if you could 
answer--if you will answer briefly, so I can move onto the next 
speaker. I apologize for not being firm on the time when we 
first started, but if you would excuse me and everyone just 
give a short--the shortest answers you could possibly give at 
this point.
    Thank you.
    Mr. Jallow. Yes, now. Yes, thank you very much. Honestly, I 
agree 100 percent that the International Decade for People of 
African Descent has been ignored greatly by most member states 
of the United Nations. And from the EU point of view, what we--
what has happened now, last week, was there was a resolution. 
And it is one of its kind, because in this resolution for the 
first time the EU was talking about reparations. They're 
talking about the transatlantic slave trade as the worst crime 
against humanity. They're talking about the decade and the 
national action plans that need to be in place.
    So this resolution should be the roadmap in trying to 
really find a way to recognize the decade and do something 
about it. So what we're doing now is we're trying to use this 
document, this resolution, both the one from the United Nations 
but also from the European Union, to move on from words to 
action. And that is going to take--is going to take a lot 
because that's what we've been lacking. There is no political 
will to recognize this decade. And we have to work from both 
sides of the Atlantic to push for it. And I, for one, am going 
to push for it. And all these meetings that we've been having 
these past weeks, that has been the point of this conversation.
    Thank you.
    Mr. Cleaver. Thank you. I will now recognize Senator 
Sheldon Whitehouse from Rhode Island.
    Senator.

 HON. SHELDON WHITEHOUSE, COMMISSIONER, COMMISSION ON SECURITY 
                        AND COOPERATION

    Mr. Whitehouse. Thank you so much, Chairman. It's great to 
be with you all. I'd like to ask anybody on the panel who'd 
care to answer this, that there was a news story a day or two 
ago about the United Nations getting ready to do an 
investigation within the United States, and the Trump 
administration using all of its diplomatic leverage to prevent 
that from happening. If anybody has any insight into that 
episode, I'd be delighted to hear what you have to say.
    Again, Chairman, thank you very much.
    Mr. Cleaver. Thank you.
    Ambassador.
    Amb. Kelly. Yes, thank you. Thank you, Senator. I don't 
know that I have any special insight into the motivations of 
the State Department for trying to block that particular 
investigation. I would say that that would be a mistake. That 
we have invoked a number of mechanisms to look into abuses of 
human rights in individual countries. And I think that it would 
be just a huge, huge mistake to try and make the argument that 
we're above such an investigation. I think that there is 
probably a lot of room for making it a more universal 
investigation into systemic racism, not only in the United 
States but also in other countries. But I don't think we look 
very good when we try to stomp on a legitimate concern of the 
international community.
    Mr. Cleaver. Any other response from any of the other 
witnesses?
    Mr. Jallow. Just quickly, as I mentioned in my initial 
statement, that is one of the recommendations. That is 
something that we included in the resolution--in the United 
Nations Resolution HRC/43, establishing this Independent 
International Commission of Inquiry. And I think just like the 
Ambassador mentioned, it's extremely important that the United 
States fully cooperates with this inquiry to make sure that 
they'll be able to fulfill its mandate promptly and efficiently 
because that's the only way we'll be able to know the truth. 
And that's the only way we'll be able to move on from the 
situation as it is, but also find durable political solutions 
when it comes to the situation in the United States now.
    Thank you.
    Mr. Cleaver. All right. Thank you. We also have with us 
today Representative Sheila Jackson Lee of Texas, who is a 
guest of our commission today. Welcome, Representative Lee. You 
are now recognized for 5 minutes.

 HON. SHEILA JACKSON LEE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Ms. Jackson Lee. Thank you very much, Mr. Chairman. And 
thank you to all of the witnesses, as well as all of the 
members, for their intent. And, of course, Chairman Hastings 
for his leadership.
    It is sad to be able to give a list of widespread human 
rights abuses from a nation that actually was using the gold 
standard--or was viewed as the gold standard for human rights, 
and whose voice could always be lifted very quickly. In 
addition to what we have been speaking about this morning, 
holding children in cages, a court decision to release mothers 
and children from immigrant detention facilities, barring 
people from coming into the country and holding them in 
devastating conditions on the southern border, blocking 
immigrants--in particular immigrants of African heritage--and, 
of course, what we have seen over the last years. Three years, 
in fact. Four years, in fact. As whole countries and just a 
whole litany of non-disputable acts of heinous behavior, and is 
not befitting of our values, our Constitution, and who we are.
    I want to say that the killing of George Floyd on the 
streets of America exacerbated and accelerated the 
understanding that we needed to change the order of policing to 
a guardian. And of course, the work of the George Floyd Justice 
and Policing Act has done that. But in the other end of it, 
there's systemic racism. And I would appreciate the response 
from the ambassador and all of the witnesses about seeing 
permeated through these issues that reflect on human rights 
that question.
    And to Ms. Taifa, and thank you for your work, thank you 
for N'COBRA, we have introduced--been leading on H.R. 40, which 
is a commission to study and develop proposals for reparations. 
It is the first elevation of discussion of race and systemic 
racism that this nation will ever confront. It is a result of 
decades of agitation. My colleague, the late John Conyers, 
started this decades ago. So let me just yield to you and ask 
how that would impact the thoughts of the needs of correcting 
human rights abuses that are too long to chronicle as it 
related to African Americans?
    Ms. Taifa.
    Ms. Taifa. Yes. Thank you, Congresswoman Sheila Jackson 
Lee. And thank you for your longstanding leadership on many 
issues in general, and particularly--on H.R. 40 in particular. 
This is a bill, the Commission to Study and Develop Reparations 
Proposals for African Americans, that's been languishing in the 
Congress for 30 years. And actually, it really is 155 years 
late, after the passage of the 13th Amendment. But it is 
timely.
    We talked earlier about moments and movements. This is a 
moment that is turning into a movement. And on the 
international front the U.N. human rights chief, Michelle 
Bachelet, she stressed the need to made amends for centuries of 
violence and discrimination, including through formal 
apologies, and truth-telling processes, and reparations in 
various forms.
    So if not now--this is the time. People on the streets 
demanding justice, demanding redress, demanding amends. And 
H.R. 40 is one way in which to accomplish that.
    Ms. Jackson Lee. Ambassador Kelly, it's important for 
people to understand--thank you so very much--that what this 
commission does is to deal with the state-sanctioned structure 
of racism. It is not to go against an individual American. It 
is a commission selected by the heads of the House, and the 
Senate, and the President of the United States to deal with the 
constitutional fraction of not being a whole person, and for 
all of the state-sanctioned issues of racism, Jim Crow and 
others.
    What is your thought about getting once and for all, and 
how the world would respond to that--passing that legislation 
and beginning that process with people who had been slaves in 
this country?
    Amb. Kelly. Yes, thank you very much for that question. I 
think for the OSCE--I think the OSCE has done a good job at 
shining a light on the problems of intolerance. But these 
problems of intolerance are basically really focused on sort of 
religious--religion-based intolerance. And I think that comes 
out of the experience of Europe during World War II. What it 
hasn't done such a good job of doing is exposing the abuses 
against people of color in the OSCE states.
    And I think that that is probably a lack that really needs 
to be addressed by the participating states of the OSCE, to 
look at how the experience of colonialism in European 
countries, slavery in the United States, has--how that legacy 
has continued to perpetuate the myth of White supremacy in the 
United States, but also I think the myth of ethnic-based 
supremacy in Europe.
    So I would hope that the OSCE would take advantage of this 
moment to expand its mandate for looking at race-based 
intolerance and systemic racism against people of color, 
against migrants, against people of African descent, against 
the Roma in Europe. And I would hope that the OSCE would rise 
to that occasion.
    Ms. Jackson Lee. Mr. Chairman, would you allow the 
parliamentarian to make a quick answer to that? I don't have 
any other questions.
    Mr. Cleaver. Sure, absolutely. Go ahead.
    Ms. Jackson Lee. Thank you. It's good to see you. Yes.
    Mr. Jallow. Thank you very much.
    Thank you, I do agree with the ambassador. I think this is 
a milestone. It's a tipping point that we need to really act 
because, as I said, it's not a moment, it's a movement. And I 
think this movement is permanently ready to see change. If we 
do not act, the movement will continue to react to some of--the 
lack of political will to create change.
    I mean, Europe, we've seen, as I mentioned--the past decade 
we've seen an upsurge of racism and White supremacy. And 
normalization has reached even higher heights. When you look at 
the European Parliament, the number of right-wing--extreme 
right-wing political parties that are represented there have 
increased significantly.
    So it is important, especially for the Council of Europe, 
where I'm a member of, we are the guardians of human rights and 
the rule of law. We cannot be the guardians of human rights and 
rule of law and continue to ignore or to deny the realities of 
15 million Black people living in Europe. We need to really 
make sure that we take into account the realities of Black 
people, we take into account the impact of colonialism, we take 
into account all system and structural racism that takes place.
    And to be able to do that, this commission that is--that is 
suggested, I think, will be able to investigate, map out the 
situation, and based on that data, those facts, will be able to 
come up with solutions that are long-standing solutions that 
will be able to provide a conductive environment, a Europe 
without racism. And I think that's the ambition. And I am 
personally writing a report--I have been given the mandate to 
write a report. And this is going to be my main focus, to try 
to come up with a resolution that would focus on solutions 
forward. That is what my objective is. And the situation right 
now is actually extremely important in the report that I'm 
writing right now.
    Thank you.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I just will end 
on this sentence to all of you. Malcolm, I'm going to call you 
appropriately parliamentarian. If the United States starts a 
commission like this, I believe it will be a shot in the arm to 
the world, dealing with the descendants of Africans and, in 
particular in the United States, descendants of enslaved 
Africans, to be able to once and for all place race in a place 
that gets the data, that gets the understanding, that develops 
the construct of how you deal with it. And it will reflect on 
Europe because Europe was part of the transatlantic slave 
trade.
    And we have never addressed this question, nor have we ever 
addressed the complete loss of wealth [of] all peoples of 
African descent. And I want people to know that this is not 
taking a check away from my neighbor. It is talking about the 
governments of our respective countries, who dealt with these 
issues and dealt with it in a way that continued to put us in a 
disparate and unequal way.
    Thank you.
    Mr. Cleaver. Yes, thank you, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman, for your 
leadership.
    Mr. Cleaver. Absolutely. Let me, as we prepare to close 
out, let me, first of all, thank all three of you. I might need 
1 minute out of each of you as we close.
    I know that our government, at least at the higher 
echelons, [is] embarrassed that we will be unable to spank the 
hand of President Xi for the crackdown in Hong Kong. We're 
losing our credibility. And Russia's move in Crimea, and any 
other gangster-like international actions might reflect poorly 
on us, because I can see leaders around the world spanking us.
    I was on an Alex Witt MSNBC show 2 weeks ago. And as she 
was interviewing me, she actually interrupted me to tell me 
that she had a friend who now lived in Eastern Europe who was 
expressing pity for the United States. She actually said: I 
feel really sorry for those of you in the United States for 
what you're going through.
    In 1 minute from each of you, do you think that we have 
lost our place as the leading voice of democracy and human 
rights around the world, with what we've been doing? Not only 
in police conflict, but even more so with some of the other 
actions we've been taking diplomatically around the world?
    We'll start with the ambassador.
    Amb. Kelly. Yes. Thank you. Thank you, Congressman. And 
thank you, again, for allowing me to participate in this very, 
very necessary discussion.
    I would say that the hundreds of American foreign service 
officers who are overseas are still working very hard to 
promote American values, to promote basic human rights. The 
difficult--the difficulty has been, as you made reference to, 
is that the highest reaches of our government are constantly 
undercutting the message that we're still sending out there, 
that respect for human rights within countries are important to 
our mutual security. And until we get a voice at the top of our 
government who will stand up and support important principles 
like the importance of keeping critical voices on the media, of 
allowing citizens to peaceably assemble and redress abuses 
against human rights, it will be difficult for my colleagues to 
continue to promote those values. And I assure you, they all 
believe very strongly in the idea of the United States as a 
city on the hill, as a standard bearer of human rights.
    Thank you.
    Mr. Cleaver. Thank you, Ambassador.
    Ms. Taifa, 1 minute, please. And then Mr. Jallow.
    Ms. Taifa. Yes. So, Chairman, so you asked, have we lost 
our place? I would say from the vantage point of people of 
African descent in the United States, the question more so is 
were we ever in place--[laughs]--in terms of the United States? 
I concluded my written testimony with a statement that the 
cumulative impact of destructive treatment against Black people 
in the criminal punishment system in general, and policing in 
particular, combined with the destructive conditions of life 
negatively impacting generations, are violations of 
international law, specifically the international convention on 
prevention and elimination of all forms of racial 
discrimination, and the international convention on the 
prevention and punishment of the crime of genocide. I concluded 
by saying that these and all other international instruments 
must be used so that we might abate what I deemed the human 
rights crisis facing Black people in the 21st century, which is 
genocide.
    Mr. Cleaver. Thank you.
    Mr. Jallow.
    Mr. Jallow. Thank you very much. First of all, let me just 
thank the chairman for inviting me to take part. And also, 
Congressman Hastings for his leadership. Let me just say the 
words of Nelson Mandela. He says, ``To deny people their human 
rights is to challenge their very humanity.'' And that is what 
we've seen when it comes to Black people, is denying our 
humanity. And that does not only happen in the United States, 
it happens worldwide globally. This is something that I have 
been historically--a historical fact for many, if not all, 
Black people.
    Now the standing of the United States as the right-bearer, 
of course, has been shaken.
    What we've seen is a manifestation of a democracy in 
crisis. And we've seen that in so many other locations. So what 
we need to do is that we must act quickly, firmly, and 
collectively, because when we choose to be silent, when we 
choose not to act in conformity with the rule of law and human 
rights, then we'll be failing a lot of people.
    And that's what the United States needs not to do right 
now. I hope they will open up, they will show accountability, 
they will show leadership, and follow the values of human 
rights, democracy, and the rule of law.
    That is what needs to be done in order to be able to go 
back to this leadership, to get this global leadership, and as 
standard bearers when it comes to human rights that the United 
States has been before. But for now, we need to see change now. 
Not tomorrow, not next week. We need it now.
    Thank you.
    Mr. Cleaver. Thank you.
    Ambassador Kelly, Mr. Jallow, Ms. Taifa, thank you very 
much for being with us. Your insights have been significant. 
And we appreciate your contributions to this country, even 
beyond what you're doing now.
    I want to thank our staff, the Executive Director Alex 
Johnson. And I want to just say that we are in a tight spot in 
the United States. And somehow we're going to have to get out 
of it. Having the Helsinki Commission dealing with this issue 
is something new, but I think it's something that's necessary 
because we've got to have a very serious and thoughtful 
discussion in this country about where we are.
    If there are no other comments from our staff, this meeting 
is adjourned.
    [Whereupon, at 12:06 p.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


             Prepared Statement of Hon. Benjamin L. Cardin

    I commend Chairman Hastings for convening this hearing on 
``Human Rights at Home: Implications for U.S. Foreign Policy.''
    We cannot stay silent about George Floyd's brutal and 
unnecessary death. Our country is grieving over the loss of 
this father, son, and brother. His life mattered. Black lives 
matter. He did not need to die. Both State and Federal law 
enforcement officers are moving quickly to bring police 
officers in this case to justice and hold them accountable for 
their actions.
    The roots of systemic racism in law enforcement were 
planted centuries ago and can be unraveled with targeted and 
conscious action. I have introduced legislation to reform 
police departments in America and rebuild trust between police 
officers and the communities they are sworn to protect and 
serve. There are many other areas of long-standing systemic 
racism and inequality that must also be addressed, including 
restoring voting rights to those who have served their time and 
been released from incarceration. I have also joined 
legislation requiring the Pentagon to remove all names, 
symbols, displays, monuments, and paraphernalia that honor or 
commemorate the Confederate States of America from all military 
bases and other assets of the Department of Defense.
    I welcome this hearing as an opportunity to consider these 
issues in the context of the United States' Helsinki 
commitments and the resolutions previously adopted by the OSCE 
Parliamentary Assembly on racism and xenophobia affecting 
persons of African descent. I hope the OSCE participating 
States will build on its engagement with diverse civil society 
across the OSCE region.
    Principle VII of the Helsinki Final Act is probably the 
most quoted text from that document, because the participating 
States committed to ``respect human rights and fundamental 
freedoms, including the freedom of thought, conscience, 
religion or belief.'' Not always quoted, but essential for 
fulfilling our promises, is the commitment to do so ``for all, 
without distinction as to race, sex, language or religion.''
    As the OSCE Special Representative on combatting anti-
Semitism, racism, and intolerance, I know our country is not 
alone in confronting these issues. We have friends and allies 
who face similar challenges. We also face malign actors who 
seek to sow divisions in our country whenever and where ever 
they can. But in holding this hearing today, our principal 
motivation should not be fear of other countries, but the 
aspiration for justice in our own.

                   Prepared Statement of Nkechi Taifa

INTRODUCTORY REMARKS

    Thank you Chairman Alcee Hastings for convening this 
critical Helsinki Commission hearing on Human Rights at Home: 
Implications for U.S. Global Leadership. And thank you for this 
opportunity to testify this morning on behalf of my company--
The Taifa Group--as well as the Justice Roundtable coalition I 
convene, and the Center for Justice at Columbia University 
where I serve as Senior Fellow.
    My name is Nkechi Taifa. In addition to the above, I also 
serve as a Commissioner on the National African American 
Reparations Commission, convened by the Institute of the Black 
World 21st Century, and am a founding member of N'COBRA--the 
National Coalition of Blacks for Reparations in America.
    One of the best explanations for the coast-to-coast 
protests in the wake of the police killings of George Floyd, 
Breanna Taylor, and others can be encapsulated by a poem by 
Langston Hughes.

What happens to a dream deferred?
Does it dry up like a raisin in the sun
Or fester like a sore, and then run 
Does it stink like rotten meat 
Or crust and sugar over, like a syrupy sweet? 
Maybe it just sags like a heavy load
Or does it explode?

    This poem literally suggests that unrealized dreams can 
wreak havoc and lead to anger, resentment and despair. When we 
see young people in the U.S. taking to the streets in protest, 
we are seeing the overflow of dreams deferred. Dreams of 
freedom, equality and justice. Dreams that have been tarnished, 
if not obliterated, by the reality of structural racism, 
bolstered by white supremacy.
    We are just past the mid-mark of the International Decade 
for People of African Descent. For centuries People of African 
Descent in the U.S. have not only dreamed of justice, but 
demanded it. We have urged the country to provide not even 
grandiose opportunities, but just basic human rights that 
protect our life and liberty. The response--inequality, mass 
incarceration and more.
    Anti-slavery abolitionist Frederick Douglass once said 
``Power concedes nothing without a demand.'' When we see young 
people in the streets, we are not only seeing protest, we are 
seeing demand. We are seeing the outpouring of decades of 
deferred dreams.
    How does change happen? There is usually a triggering 
event, representing the tip of an iceberg that, in the context 
of Black people in the U.S., has been building for centuries. 
And then, a cataclysmic event that explodes. Tragic as it was, 
the explosion resulting from George Floyd's death represented 
only the tip of Black people's demands for justice. The 
deferred dream exploded with Emmett Till, whose brutal 1955 
murder shocked the nation. It exploded with the senseless 
slayings of Trayvon Martin and Michael Brown, Eric Garner and 
Philando Castile, Tamir Rice and Rekia Boyd, Freddie Gray and 
Breanna Taylor, Ahmaud Arvery and Rayshard Brooks, and the list 
seemingly grows daily.
    With each death of a Black person by police or racist 
Whites, with each affront to voting rights, with each health 
disparity, with each trip down the school to prison pipeline, 
with each widening of the Black/White wealth gap, with each 
house pilfered by redlining, and with each intergenerationally-
transmitted traumatic injury--there was and is a demand for 
justice.
    The U.S. government has failed to protect Black people from 
systemic racism and police violence. Advancing societies that 
are safe, inclusive and equitable is central to the work of the 
Helsinki Commission, of which the U.S. is signatory. The 
international community must bear witness. The U.S. must not be 
above scrutiny. It must meet its commitments, review its own 
record, and be open to criticism. It is incumbent that this 
country engage in candid self assessment, if it wishes to 
legitimately demand a similar level of reflection from other 
OSCE participating states.
    Similarly, the U.S must fully embrace human rights 
conventions it is a party to and eliminate limitations to their 
use in U.S. courts. These include the Convention on the 
Elimination of All Forms of Racial Discrimination, the 
Convention Against Torture, the Convention on Political and 
Human Rights, the Office of the High Commissioner's Basic 
Principles on the Use of Force and Firearms by Law Enforcement 
Officials and the Convention on the Prevention and Punishment 
of the Crime of Genocide..
    Black people in the U.S. have dissented many times in the 
past and, once, again, they are visible in the streets showing 
that Black lives do indeed matter. Policies that once seemed 
radical now appear more palatable. Where we once spoke of 
reform, we now demand transformation. The blueprint is still 
being formulated and no one will leave this moment without 
having been changed.
    What we are witnessing today is the unprecedented 
possibility for change, and the unprecedented possibility for 
the dream to expand, not explode.
    Thank you for this opportunity to testify. I have submitted 
my full testimony for the record, which relies heavily upon 
previous works I have authored relative to the use of 
international human rights treaties applied to the U.S.

BLACKS HAVE HISTORICALLY APPEALED TO INTERNATIONAL BODIES FOR 
                    VINDICATION OF BASIC HUMAN RIGHTS

    In the absence of genuine opportunities for redress within 
the U.S. body politic, Black people in the U.S. have made 
constant appeals to international bodies for vindication of 
their basic human rights. We have made conscious attempts to 
internationalize our plight, as we struggle to affect changes 
in the country's priorities, policies and practices.
    In 1829 David Walker published his distinguished ``Appeal 
to the Coloured Citizens of the World.'' This document not only 
was a clarion call to Africans held as slaves in North America 
to struggle for liberation, but was also a plea to the 
international community to support the struggle for basic human 
rights and an end to the system of chattel slavery in the U.S.
    In 1841 the U.S. Supreme Court drew on international law 
principles in addressing the issue of the rights of Africans 
who had, on shipboard, freed themselves from kidnapping and 
enslavement. The Court held that such freed persons are clothed 
with inalienable human rights, and these rights are a shield 
against unilateral, definitive actions of other political 
communities. The Court found that the Africans who achieved 
their freedom were subject to neither the law of Spain nor to 
U.S. law, but to ``the general law of nations,'' and they were 
subsequently allowed to return to Africa.
    In 1920 the Honorable Marcus Mosiah Garvey presented to the 
League of Nations twelve complaints and a fifty-four point 
document entitled ``Declaration of Rights of the Negro Peoples 
of the World.'' This document was ratified by the first 
Universal Negro Improvement Association Delegate Convention of 
25,000 participants representing 25 countries. Blacks took 
great interest in the proceedings and pressed for the inclusion 
of human rights concerns in the United Nation's Charter, 
resulting in the provision declaring that the United Nations 
should promote universal respect for, and observance of, 
``human rights and for fundamental freedoms for all without 
distinction to race, sex, language or religion.''
    In 1951 W.E.B. DuBois, Paul Robeson, William L. Patterson, 
Mary Church Terrell and others presented the United Nations 
General Assembly in Paris and the United Nations Secretary 
General's office in New York with the renowned petition ``We 
Charge Genocide,'' which chronicled the terroristic sufferings, 
murder, mental assault, and crimes against humanity inflicted 
against Black people.
    In 1971 a letter was addressed to the Member Nations of the 
U.N. General Assembly, directly following a pre-dawn unprovoked 
attack by U.S. governmental and state police forces upon the 
residence and office of the Republic of New Afrika, requesting 
that international observers be sent to Mississippi and ``act 
immediately to avoid loss of life and a conflagration and in 
the interests of world peace.''
    A petition was filed with the United Nations in 1979 by 
Attorney Lennox Hinds on behalf of three petitioning 
organizations, the National Conference of Black Lawyers, the 
National Alliance Against Racist and Political Repression and 
the United Church of Christ, Commission for Racial Justice. 
This same petition was filed with the U.N. Human Rights 
Commission and its sub-commission on Prevention of 
Discrimination and Protection of Minorities. Here the 
petitioners alleged a pattern of gross violations of human 
rights and fundamental freedoms of political prisoners and 
prisoners of war wrongfully held on account of their race, 
economic status and political beliefs and inhumanely treated in 
U.S. prisons.
    In 1996 an array of Black nationalist groups in the U.S. 
petitioned the United Nations Special Committee of 24 on 
Decolonization, seeking international support for the right to 
self determination. Inspired by the genocide petition submitted 
to the U.N. 46 years earlier, the National Black United Front 
in 1997 delivered a petition containing 157,000 names of people 
who again formally charged the U.S. government with genocide 
against its Black population. This petition was launched 
following allegations of CIA collusion in the funneling of 
crack cocaine into predominately Black inner city communities 
in America.
    On March 3, 2006, the Inter-American Commission on Human 
Rights accepted the Justice Roundtable's request and held a 
thematic hearing on the 100:1 quantity disparity between crack 
and powder cocaine as the most egregious example of mandatory 
minimum sentencing in the U.S. criminal justice system. The 
petition argued that de facto discrimination against African 
Americans that is a result of harsh mandatory minimum sentences 
for crack cocaine cases is a violation of the American 
Declaration on the Rights and Duties of Man--specifically the 
right to equal protection under the law, the right to a fair 
trial, and the right to judicial protection against violations 
of fundamental rights. Professor Charles Ogletree delivered the 
Roundtable's testimony, joined by the First U.N. Independent 
Expert on Minority Issues Gay McDougall; directly impacted 
person Kemba Smith; and the Honorable Patricia Wald. Wald, a 
former judge of the International Criminal Tribunal for the 
former Yugoslavia, who testified on behalf of the American Bar 
Association, poignantly testified:

        Unduly long and punitive sentences are counter-
        productive, and candidly, many of our mandatory 
        minimums approach the cruel and unusual level as 
        compared to other countries--as well as to our own past 
        practices. On a personal note, let me say that on the 
        Yugoslavia War Crimes Tribunal, I was saddened to see 
        that the sentences imposed on war crimes perpetrators 
        responsible for the deaths and suffering of hundreds of 
        innocent civilians often did not come near those 
        imposed in my own country for dealing in a few bags of 
        illegal drugs. These are genuine human rights concerns 
        that I believe merit your interest and attention.

    In 2014 after the horrific police killing of Michael Brown 
in Ferguson, Missouri, Attorney Justin Hansford led the 
``Ferguson to Geneva'' delegation, accompanying Ferguson 
protestors and Michael Brown's parents to testify before the 
United Nations Committee Against Torture. ``We need the world 
to know what's going on in Ferguson and we need justice,'' said 
Leslie McSpadden, the mother of Brown as she testified in 
Geneva, Switzerland.
    Over the course of several decades over 110 African 
American and Latino men and women were subjected to torture 
that was racially motivated and included electric shocks, mock 
executions, suffocation and beatings by John Burge, a Chicago 
police commander and his subordinates. Scores of Chicago police 
torture survivors suffered from the psychological effects of 
the torture they endured and, with no legal recourse for 
redress, appealed to the international arena. A shadow report 
on the Burge torture cases was submitted to the UN Committee 
Against Torture. In May 2006 and November 2014, the UN 
Committee condemned the U.S. Government and the City of Chicago 
for failing to fulfill its obligations under the Convention 
Against Torture with respect to the Burge torture cases. The UN 
Committee also cited its concerns about police militarization, 
racial profiling and reports of police brutality. The 
international body's intervention was pivotal to the May 2015 
passage by the Chicago City Council of an Ordinance providing 
compensation, restitution and rehabilitation to survivors of 
the racially motivated police torture. The Ordinance contained 
a formal apology to the survivors, a Commission to administer 
financial compensation, free enrollment in city colleges to the 
survivors; the requirement that the city's public schools teach 
about the torture, and the funding of city memorials about the 
torture.
    On November 12-14, 2014, We Charge Genocide (WCG), a 
Chicago based grassroots inter-generational organization whose 
name was inspired by the historic 1951 petition to the United 
Nations, sent a delegation of eight youth to the 53rd Session 
of the Committee Against Torture in Geneva to present evidence 
of police violence at the 53rd session of the United Nations 
Committee Against Torture. The delegation was following up on 
the submission of the shadow report, Police Violence Against 
Youth of Color, published by WCG. The goal of addressing the 
U.N. was to increase the visibility of police violence in 
Chicago and call out the continued impunity of police officers 
who abuse, harass, and kill youth of color in Chicago every 
year.
    On September 24, 2019 the Inter-American Commission on 
Human Rights convened a thematic hearing on reparations as a 
remedy for human rights violation against Afro-descendants in 
the U.S. during the 173rd Period of Sessions, spurred by the 
Thurgood Marshall Civil Rights Center at Howard University 
School of Law, along with 29 co-sponsoring organizations. The 
hearing highlighted the need for reparations for the systematic 
pattern of human rights violations against Afro-descendants 
attributable to the U.S. government including the crimes of 
slavery, Jim Crow laws, excessive and violent policing 
practices, mass incarceration and other forms of structural 
racial discrimination.
    On June 17, 2020 an Urgent Debate in the United Nations 
Human Rights Council in Geneva was convened, focused on 
systemic racism and policing in the U.S. The session followed 
demands for international action issued by human rights groups 
and experts from dozens of countries who cited the repeated 
deaths in the U.S. of unarmed Black people, brutal police 
tactics against protestors and police assaults on journalists 
covering them. A letter filed by the U.S. Human Rights Network 
and endorsed by family members of George Floyd, Breanna Taylor, 
Michael Brown and Philando Castile, called on the Council to 
pass a Resolution that would have established an independent 
international commission of inquiry related to the systemic 
racism, human rights violations and other abuses against People 
of African Descent in the United States and around the world. 
The Resolution was not adopted but a weaker version passed 
which fails to mandate the establishment of such a commission. 
Rather, it calls for a report from the High Commissioner to be 
presented to the Human Rights Council, followed by an 
interactive Dialogue.
    As part of the June 17, 2020 Urgent Debate on racism and 
police brutality at the UN Human Rights Council in Geneva, the 
UN's Human Rights Chief Michelle Bachelet called on countries 
to examine their pasts and to strive to better understand the 
scope of continuing ``systemic discrimination.'' She pointed to 
the ``gratuitous brutality'' on display in the killing of 
George Floyd who died in Minneapolis on May 25 after a white 
police officer--since charged with murder--kneeled on his neck 
for nearly nine minutes. She also stressed the need to ``make 
amends for centuries of violence an discrimination, including 
through formal apologies, truthtelling processes and 
reparations in various forms.''
    In sum, there has been a continuous evolution of appeal by 
people of African descent in the U.S. to the international 
sphere for recognition and redress, and the above recitations 
merely scratch the surface. The evidence and documentation 
presented to these international bodies clearly reveal patterns 
and practices of gross violations of human rights and 
fundamental freedoms in the U.S. This trend is contrary to the 
tenets of international law and universal norms.

THE U.S. MUST ADHERE TO THE CONVENTION ON THE ELIMINATION OF ALL FORMS 
                    OF RACIAL DISCRIMINATION

    The International Convention on the Elimination of All 
Forms of Racial Discrimination (CERD) has been described as 
``the most comprehensive and unambiguous codification in treaty 
form of the idea of the equality of the races.'' CERD prohibits 
racial discrimination, which it defines as ``any distinction, 
exclusion, restriction or preference based on race, colour, 
descent, or national or ethnic origin'' having the purpose of 
``nullifying or impairing the recognition, enjoyment or 
exercise, on an equal footing of human rights and fundamental 
freedoms in the political, economic, social, cultural or any 
other field of public life.'' Parties to the Convention are 
legally obligated to eliminate racial discrimination within 
their borders and are required to enact whatever laws are 
necessary to ensure the exercise and enjoyment of fundamental 
human rights free from discrimination.
    The CERD provision relating to criminal justice concerns is 
subsumed within Article 5: In compliance with the fundamental 
obligations laid down in article 2 of this Convention, States 
Parties undertake to prohibit and to eliminate racial 
discrimination in all its forms and to guarantee the right of 
everyone, without distinction as to race, colour, or national 
or ethnic origin, to equality before the law, notably in the 
enjoyment of the following rights:

        (a) The right to equal treatment before the tribunals 
        and all other organs administering justice;
        (b) The right to security of person and protection by 
        the State against violence or bodily harm, whether 
        inflicted by government officials or by any individual, 
        group or institution;
        (c) Political rights, in particular to the rights to 
        participate in elections-to vote and to stand for 
        election--on the basis of universal and equal suffrage 
        to take part in the Government, as well as in the 
        conduct of public affairs at any level and to have 
        equal access to public service.

    Enumerating a string of ``other civil rights'' encompassing 
the civil, politics, economic, social and cultural spheres, the 
Convention goes on to iterate the following:

        States Parties shall assure to everyone within their 
        jurisdiction effective protection and remedies against 
        any acts of racial discrimination which violate human 
        rights and fundamental freedoms contrary to this 
        Convention, as well as the right to seek from such 
        tribunals just and adequate reparation or satisfaction 
        for any damage suffered as a result of such 
        discrimination.

    The United States has promulgated numerous treaties 
proscribing various human rights violations, including 
genocide, civil and political rights, economic, social and 
cultural rights, and torture. However, it appears politically 
expedient for the U.S. to ratify human rights treaties with 
limiting reservations, understandings and declarations (RUDS). 
This practice not only nullifies these treaties' impact in the 
U.S., but nullifies their effect. It is readily apparent that 
when the U.S. ratifies a human rights treaty today, it not only 
attempts to ensure that it has not assumed any international 
human rights obligations not already guaranteed by U.S. law, 
but, by making the treaty non-self-executing, it effectively 
precludes individuals from relying on any of the treaty's 
provisions in U.S. courts.

THE INFLICTION OF POLICE BRTUALITY AGAINST BLACKS MUST END

    Many issues of racism in the U.S. violate the International 
Convention on the Elimination of all Forms of Racial 
Discrimination, specifically the clause that condemns laws and 
practices that have an invidious racially discriminatory 
effect, regardless of intent. The selective infliction of 
police brutality is an example of a gross inequality that could 
be alleviated by CERD in its unadulterated form.
    The international race convention promotes the right to 
security of person and protection by the State against violence 
or bodily harm, whether inflicted by government officials or by 
any individual, group or institution.
    Statistics reveal that Blacks are far more likely to be 
physically abused and/or murdered by police officers charged to 
protect them. Indeed, by the admission of some police officers, 
race is used as a determinative factor in deciding who to 
follow, detain, search and arrest. The lengthy history of 
police brutality against Black people is legion, and is still 
very prevalent today. Statistics also reveal there are 
disproportionately high rates of the use of excessive and 
deadly force by police against Blacks. Research has shown that 
a variety of factors contribute to the problem--including 
racism and prejudice, unfettered police discretion, the 
infamous police code of silence, inadequate disciplinary 
measures by police departments and administrators, and the 
ineffectiveness of current remedies.
    It is incumbent that the U.S. demonstrate a seriousness of 
purpose in eradicating racial discrimination in its criminal 
punishment system. I submit that the enforcement of 
international norms domestically, specifically the provisions 
of CERD, would eliminate the barriers presented by current law 
and practice with respect to racism, at least in the criminal 
justice system. Even if legislation is not implemented to 
enforce the treaty in U.S. law, if international law were used 
to assist in interpreting our constitutional rights ``the right 
attains greater credence as one that has universal 
recognition.''
    The judicial system should interpret the U.S. 
Constitution's 14th amendments equal protection analysis in 
light of CERD's clause abrogating laws with an invidious 
discriminatory effect irrespective of intent, enabling the 
higher standard of strict scrutiny to apply.
    With respect to abating the racial infliction of police 
brutality and misconduct, there must be a new federal response 
toward police misfeasance. The U.S. is required, pursuant to 
the International Covenant on Civil and Political Rights, the 
Convention Against Torture, and CERD to file comprehensive 
reports with the United Nations on its domestic human rights 
compliance.
    In its first report to the United Nations Committee on the 
Elimination of Racial Discrimination, three groups--Human 
Rights Watch, the International Human Rights Law Group and the 
NAACP Legal Defense and Educational Fund emphasized that the 
U.S. CERD Report and subsequent submissions include reference 
to U.S. law and practice relating to racial discrimination and 
a discussion of whether these laws are sufficient to eliminate 
discrimination in fact, or whether additional steps by the 
federal government are necessary. These organizations stressed 
that because the non-self-executing clause effectively denies 
Americans the enjoyment of international law protections in 
domestic courts, it is all the more incumbent upon the 
government to bring all aspects of U.S. law and practice into 
conformity with the international standards contained in CERD.
    The Race Convention embodies the world community's 
expression that a universal, international standard against 
race discrimination is necessary if racial and ethnic bias are 
to be eliminated. The U.S. has been challenged to take 
appropriate measures to ensure that its laws are in conformity 
with the dictates of CERD. It is a sad commentary on this 
country that with respect to the ratification of human rights 
treaties in general and CERD in particular, the U.S. is not 
leading the way, but instead is pulling up the rear.
    Indeed, the 94 petitioners who signed the 1951 Genocide 
complaint against the U.S. to the United Nations stated, ``we 
believe that . . . the manner in which a government treats its 
own nationals is not to be found in the lofty platitudes that 
pervade so many treaties or constitutions. The essence lies not 
in the form, but rather, in the substance.''
    It is clear that the CERD prohibition against violence by 
government officials or others is violated by the wanton 
infliction of brutality against Blacks by police. Over 100 
years ago W.E.B. DuBois accurately predicted that the problem 
of the 20th century would be the problem of the color line. And 
now, into the 21st century, the problem of race in society is 
just as pernicious. Domestic law has proven inadequate in 
providing relief. The application of international human rights 
law to the U.S. could be the pivotal strategy which eradicates 
racism and its deleterious effects. To paraphrase the words of 
Human Rights Watch, the International Human Rights Law Group, 
and the NAACP Legal Defense and Education Fund:

        ``CERD needs to be promoted as the law of the land and 
        U.S. law and practice must be brought into conformity 
        with it. American must show a respect for the 
        Convention and a seriousness of purpose in eliminating 
        racial discrimination.''

THE INTERNATIONAL CONVENTION ON THE PREVENTION AND PUNISHMENT OF THE 
                    CRIME OF GENOCIDE SHOULD BE USED IN U.S. COURTS

    In today's environment, we think about systemic racism, but 
what we should be discussing is the possible extermination of a 
people. This is because, I submit, the United States has moved 
beyond both overt Jim Crow and beyond unconscious bias in its 
criminal punishment system, to what I call, ``institutionalized 
genocide.'' The coinage of this phrase represents a scientific 
framework through which to analyze what is happening to people 
of African descent in the 21st century. Although this testimony 
scrutinizes the concept through the lens of police killings on 
the Black community, the impact of the broader criminal 
punishment system and other systems with a disproportionate 
negative impact on Black people such as education, health care, 
and the economic system could and should likewise be so 
examined.
    While genocide appears to many to singularly denote 
killings through massacre and annihilation, its international 
definition also includes the creation of ``conditions of life'' 
calculated to bring about the destruction of a people, in whole 
or in part. Unfortunately, seldom do people examine the 
internationally adopted parameters of the term genocide and 
then compare them with the treatment of Black people in the 
U.S. If one were to do so, state-sponsored genocide against 
Black people, particularly as it relates to police killings, is 
at least plausible, if not undeniable.
    In 1948 the General Assembly of the United Nations adopted 
the International Convention on the Prevention and Punishment 
of the Crime of Genocide. ``This Convention confirmed that 
genocide, whether committed in time of peace or in time of war 
is a crime under international law which must be undertaken to 
prevent and punish.'' Genocide, the Convention declares, is the 
committing of certain acts with intent to destroy--in whole or 
in part a national, ethnical, racial or religious group, as 
such:

- killing members of the group
- causing serious bodily or mental harm to members of the group
- deliberately inflicting upon the group conditions of life 
calculated to bring about its physical destruction in whole or 
in part
- imposing measures to prevent births within the group
- forcibly transferring children of one group to another group

    Those acts, the international Convention states, constitute 
genocide. Pursuant to the Convention, however, genocide is not 
the only punishable act. Related acts are equally punishable:

(a) conspiracy to commit genocide
(b) direct and public incitement to commit genocide
(c) attempt to commit genocide
(d) complicity in its commission

    The international definition concludes by reminding the 
parties that those who commit genocide or any other of the 
related acts ``shall be punished, whether they are 
constitutionally responsible rulers, public officials, or 
private individuals.''
    It took the U.S. 38 long years to ratify the Convention. 
One fear was that Blacks in America would use the treaty to 
their advantage. Segregationists felt that American 
ratification would subject the United States to charges based 
on the treatment of Native American and Black people, and Ohio 
representative Senator John Bricker in particular was alarmed 
at the thought that literally thousands of discriminatory 
Federal and State laws could automatically be invalidated by 
application of international human rights law in U.S. courts.
    Largely as the result of that, it has been said that the 
Genocide Convention set a record as ``the most scrutinized and 
analyzed non-military treaty ever to be considered by the 
Senate.'' Thirteen days of public hearings were held by the 
Senate Committee on Foreign Relations, generating testimony 
from over 200 witnesses representing divergent views, 
culminating in a hearing transcript of over 2,000 pages.
    After nearly four decades, however, and feeling comfortable 
that enactment of antisegregation laws mooted concern over 
attacks against U.S. racial practices of the 1950's and 1960's, 
and inserting language to limit the scope of the Convention 
within U.S. law, the U.S. Senate, nearly 40 years after its 
adoption by the United Nations, and after scores of other 
nations had already ratified it, finally gave its advice and 
consent to ratification in 1988.
    What is so significant about the Genocide Convention to 
activists, advocates, and lawyers, is that it is the only 
international human rights treaty adopted by the United States 
that is fully actionable in U.S. law.
    Later international human rights treaties such as CERD, the 
International Covenant on Civil and Political Rights, and the 
Convention Against Torture, while symbolic, are not self 
executing, meaning they have no enforceability in U.S. courts 
because there is no U.S. legislation to implement their 
provisions. Ratification of the Genocide Convention, however, 
required the adoption of implementing legislation, to ensure 
that the ratification not be a symbolic gesture, but have the 
full force of law and the authority to enact penalties.
    On April 4, 1988, then President Ronald Reagan completed 
the final step to the ratification process by signing the 
treaty, ``The Genocide Convention Implementation Act.'' This 
Act codified the international Genocide Convention in U.S. law, 
although making various changes in an attempt to limit its 
applicability, such as adding the term ``specific'' before 
intent.
    It is important to recall the full title of the Genocide 
Act. The International Convention on the Prevention and 
Punishment of the Crime of Genocide. There are necessary 
reforms that can prevent genocide and lead to systemic 
transformation, such as the use of force only as a necessary 
last resort; that all sorts of chokeholds be banned; that 
racial profiling be prohibited; that transfer of military 
equipment to law enforcement be ceased; that no-knock warrants 
be abolished; that there be a recklessness standard in the law 
so that killer cops can be held accountable; that a national 
public database be developed so that problematic police cannot 
easily move from one police agency to another; and that the 
doctrine of qualified immunity be ended, which shields police 
from being held legally accountable when they break the law.
    In concert with such laws that could prevent the genocide 
from continuing, advocates and lawyers must also be in the 
courts, using provisions from the Genocide Convention, to 
punish those with the intent to destroy in whole or in 
significant part, a national, racial, ethnic or religious 
group.
    I acknowledge that the specific intent prong as inserted by 
the U.S. ratification is the fundamental hurdle to use of this 
treaty in United States law. It is a difficult hurdle, given 
the restrictive manner in which U.S. courts continue to 
construe the intent requirement in general equal protection 
analysis involving criminal legal issues. It is clear that few 
public officials, private individuals or constitutionally 
responsible officials, much less police officers, will 
affirmatively state, `I have the specific intent to destroy, in 
whole or in substantial part, your racial, ethnic or religious 
group,' yet that level of honesty appears to be what the U.S. 
codification requires.
    In reality, however, many of the disparities arise from 
institutional and structural racism where bias is codified 
within the structural fabric of social institutions and 
manifests routinely without the need for a discrete actor to 
overtly perpetuate a discriminatory act.
    There is a broader social context which underlies the 
criminal punishment system in the U.S. It is a social context 
permeated by the poverty, rampant unemployment, poor housing 
and homelessness, inadequate education, harmful health 
outcomes, and diminished life opportunities and it is these 
unmet social needs which provide the fuel for the cycle of 
incarceration and the police as its first responders. These 
damaging conditions of life often result in the destruction of 
not only individuals, but entire families and generations. Are 
these conscious acts intended to cause destruction? Are they 
the unconscious effects of structural racism in the system? Or 
do they constitute institutionalized genocide?
    There is a solution. The International Race Convention 
allows intent to be gleaned through actions and impact, 
regardless of specific intent, reaching both conscious and 
unconscious forms of racism. Thus, if the intent standard of 
the Genocide Convention as ratified by the United States were 
to be interpreted in accordance with the intent standard in the 
international Race Convention--then a claim of genocide against 
a substantial portion of the Black populace in the United 
States resulting from institutionalized or structural racism in 
the criminal punishment system in general, and police killings 
under color of law could, in fact, be actionable.
    It is clear that the horror of racism--overt as well as 
institutional--has not been repugnant enough for the fashioning 
of structural solutions to abate the problem. Perhaps the 
application of the intensified nomenclature of genocide will 
shock the conscience of the public to intensify actions to 
remedy the problem. Perhaps the stark correlation between the 
internationally-accepted definition of genocide and the 
juxtaposition of that definition against the impact of racism 
in the U.S. punishment system will spark needed revolutionary 
change in policies and practices, and move the system away from 
genocide, and toward transformative justice.
    The Democratic majority House of Representatives recently 
passed the Justice in Policing Act, which contains some 
remedies that could begin the process of abating the genocide, 
but it has to have the agreement of the Republican majority 
Senate. However, the bill drafted by the Senate to most 
activists is a total non-
starter--doing nothing that will stop the killing, causing 
serious bodily or mental harm, or inflicting on the group 
conditions of life that lead to the destruction of Black 
people.
    It is incumbent that those most affected by racism, as well 
as those who truly believe that Black Lives do, in fact, 
matter, have the audacity to advance creative theories.
    The term, ``institutionalized genocide'' is a formulation 
illuminating the severity inherent in the international 
nomenclature, while acknowledging that there are complications 
with the U.S. interpretation of intent.
    Is the impact of the actions of killer cops and the ensuing 
racism in the criminal punishment system genocidal against a 
substantial portion of the Black populace? I submit yes. As 
long as the lives of the people in Black communities are being 
destroyed; as long as genocidal treatment is embedded in police 
departments, prosecutor's offices, and courtrooms, and the 
perception of unequal justice is perpetuated throughout the 
system; and as long as legislatures continue laws and practices 
that had a damaging effect, there will be genocidal 
consequences for Black people.

CONCLUSION

    The racially selective manner in which justice is 
administered in the United States violates not only elemental 
principles enshrined in the U.S. Constitution but basic human 
rights and fundamental freedoms outline in a myriad of 
international instruments as well. The dialogue and 
implications for U.S. global leadership with respect to the 
applicability of human rights norms to the U.S. must be 
amplified, and I am thrilled that Chairman Hastings has 
convened this timely hearing.
    My testimony today has presented the case that the 
cumulative impact of destructive treatment against Black people 
in the criminal punishment system in general and policing in 
particular, combined with the destructive conditions of life 
negatively impacting generations, are violations of 
international law, specifically the International Convention on 
the Elimination of All Forms of Racial Discrimination and the 
International Convention on the Prevention and Punishment of 
the Crime of Genocide. These and all other international 
instruments must be used so that we may abate the human rights 
crisis facing Black people in the 21st Century--genocide.

This testimony relies on works previously published by Nkechi 
Taifa: ``Codification or Castration: The Applicability of the 
international Convention to Eliminate All Forms of Racial 
Discrimination to the U.S. Criminal Justice System,'' Howard 
Law Journal, Vol. 40, Issue 3, Spring 1997; ``Racism in the 
U.S. Criminal Justice System: Institutionalized Genocide?'' 
American Constitution Society Issue Brief, October 2016. 

              Prepared Statement of Malcolm Momodou Jallow

    A few words to introduce myself--I am a member of the 
Swedish parliament and of the Swedish delegation to the 
Parliamentary Assembly of the Council of Europe. the main human 
rights organisation of this continent. In this capacity, I have 
the opportunity to exchange regularly with parliamentarians 
from 47 European countries.
    Political developments in the U.S. have a significant 
socio-economic and political impact on the rest of the world. 
There is reason for great concern about the unfolding grave 
human rights crisis in the United States: partly as a result of 
the systemic brutal police killings of black people, but also 
the use of state sanctioned excessive force and suppression of 
peaceful protesters. These are clear violations of United 
States obligations under international law.
    The Trump administration has within this short period of 
time completely eroded the authority of the US as a standard 
bearer and thereby undermined the legitimacy of the so-called 
U.S. GLOBAL LEADERSHIP. One cannot exercise effective soft 
power without legitimacy. The isolationist foreign policy 
direction, the nationalist rhetoric and the blatant non-
compliance to the international human rights standards and 
rules-based orders only accelerate the decline in confidence 
from the rest of the world.
    We have had a series of evidence of structural and 
institutional racism and racist policing fuelled by historical 
abuses and negative stereotyping, leading to the exclusion and 
dehumanisation of black people in the U.S. However, this 
particular murder of George Floyd has become a clear 
manifestation and a tipping point for what many, including many 
Europeans, perceive as state sanctioned racism and blatant 
violation of the civil and human rights of black people.
    What we have seen in the U.S. does not only illustrate the 
deep rooted and historical systemic injustice against black 
people. It also clearly manifests the extent to which white 
supremacy ideologies are normalised.
    What we are seeing is a manifestation of a democracy in 
crisis.
    If this were happening in any other part of the world, the 
U.S. and other western countries would be demanding a regime 
change.
    It is remarkable, however, how much time it took and how 
much pressure from the black community that was required for 
the global leadership to react.
    When leaders sow the seeds of hatred and stoke the flames 
of racist violence, we legitimize intolerance and bigotry.
    We create division rather than unite the people.
    And most importantly, we undermine the fundamental values 
of democracy, human rights and the rule of law.
    Structural, institutional and systemic racism, including 
racist violence, is not confined only to the boundaries of the 
U.S. It is also very much present in Europe. We have, and 
continue to experience, our share of structural and 
institutional racism and police brutality. With impunity.
    Over the last decade, we have seen an increase, both in 
gravity and number, in the manifestations of racism in all its 
forms.
    I woke up yesterday morning reading on my time Line an 
article from New York Times with the title:
    ``A young Black man (Phillip Mbuji Johansen, 28 years old) 
was tortured and killed on a remote island in Denmark by two 
white men with known far-right affiliations, one of them with a 
swastika tattoo on his leg, but the authorities are refusing to 
call it a hate crime.''
    Mr. Johansen's mutilated body was found at a camp site. 
According to the preliminary indictment, his skull was broken 
after he was beaten several times with a wooden beam; he was 
stabbed multiple times; a knife was driven through his throat 
and a knee had been planted in his neck. He died sometime early 
Tuesday, according to a forensic report.
    The prosecutor, Benthe Pedersen Lund, told a local 
newspaper that the killing had nothing to do with ``skin 
color'' but with ``a personal relationship that has gone 
wrong.''
    Woury Jallow in Germany, Adama Traore, in France, Steven 
Laurence UK and now Phillip Mbuju are just a few amongst a long 
list of victims of racist violence that lead to the loss of 
their lives. All of these cases were systematically met with 
blatant denial of the root causes that lead to the tragic 
consequences for these victims.
    The effects of governments' failure to devise and implement 
adequate policies on social cohesion, diversity, migration and 
social inclusion have triggered this upsurge, which has been 
amplified by the increasing use of Internet and social media. 
The dimension, gravity and frequency of their manifestations 
are of great concern and urgency.
    The urgency becomes even more acute, considering that these 
phenomena have repercussions that go well beyond the single 
individuals that are directly targeted.
    They affect entire communities and they create divides in 
society, affecting human rights and social cohesion; and they 
erode even further the trust in public authorities, the rule of 
law and ultimately democracy.
    In addition, issues of race relations deeply affect the 
conduct of our foreign policy relations
    The European project has anti-discrimination at its heart, 
with a fundamental commitment to ensuring that we learn the 
lessons of the Holocaust and past European divisions through 
pursuit of human rights for all. This project, however, appears 
to be failing with regard to Black Europeans. The pain and 
denigration of Black people has a historical context that we 
must remember., Hence, the UN Decade on People of African 
Descent and its three focus areas Recognition, Justice and 
Development.
    The images of the brutal and tragic death of George Floyd 
triggered a protest movement not only in the U.S. but around 
the world. The scale and intensity of the protests illustrates 
a deep sense of frustration and pain that Europe, for the 
longest of time, had shown no regard for.
    The usual silence and exceptional entitlements from 
European leaders are no more working, as this is not a moment, 
but a movement. A movement that is deeply and permanently 
committed to justice, human rights and the rule of law. Not in 
words, but in action!
    ``I want people across the world and the leaders in the 
United Nations to see the video of my brother George Floyd, to 
listen to his cry for help, and I want them to answer his 
cry,'' said Philonise Floyd, brother of George Floyd. ``I 
appeal to the United Nations to help him. Help me. Help us. 
Help Black men and women in America.''
    There is a George Floyd in every part of Europe, and just 
like George Floyd, we can't breathe. It is time for the 
European leadership, as well as the U.S. leadership, to 
recognise their blind spots and listen to our demands for 
justice, equality and human rights.
    You got a chance and a you got choice, so we demand to see 
changes. We must act quickly, firmly and collectively, because 
when we choose to be silent in the face of hatred, bigotry and 
racism, we choose to be complacent there by undermining the 
fundamental values of human rights, democracy and the rule of 
law.

               Prepared Statement of Ambassador Ian Kelly

    Among the many contributions of the Helsinki process to 
international peace, perhaps the greatest was the consensus 
that security among states depends in part on respect for human 
rights within states. We support the OSCE because we know that 
a world where fundamental freedoms are upheld is a safer world. 
As OSCE leaders agreed in the Charter of Paris in 1990, 
``observance and full exercise (of human rights) are the 
foundation of freedom, justice and peace.''
    At the OSCE, to advance that cause, the U.S. has worked 
together with our democratic allies in Europe and Canada to 
support human rights. In my time at the OSCE, the greatest 
challenges to the cause were the political use of the judiciary 
and law enforcement, government intimidation of critical media 
and civil society, and the lack of checks and balances against 
the power of the executive.
    Recent events have shown that America as a model for 
fighting against the first two tendencies has been greatly 
tarnished. But we can still be a beacon for promoting 
separation of powers to ensure transparency and accountability.
    The recent beatings of protestors in the U.S. served as an 
uncomfortable reminder of events in Minsk in December 2010, 
when police used violence to break up rallies against the 
government. It caused us and our allies at the OSCE to invoke 
something called the Moscow Mechanism, where a group of OSCE 
countries can appoint a special representative to investigate 
abuse against those exercising their basic freedoms.
    We knew that Russia and others would veto the 
recommendations of the report. We invoked the Moscow Mechanism 
because we wanted to send a strong signal: that we found the 
use of violence to quell dissent unacceptable.
    A decade later, we've seen in our country the excessive use 
of force against protestors who are peaceably assembling. 
Perhaps the most prominent example was in Lafayette Square. 
There, authorities put a higher priority on clearing peaceful 
protestors for a photo op, than on allowing them to exercise 
their basic rights. I don't want to compare our response to 
protest to that of the Lukashenko regime. But until the highest 
levels of our government condemn what happened in Lafayette 
Square and elsewhere, we've lost much of our moral authority to 
call other countries to account.
    In my last post, as Ambassador to Georgia, I experienced in 
dramatic fashion how attacks on critical media in the U.S. have 
eroded our power to persuade other countries to protect free 
speech. A few months before I retired in early 2018, a Georgian 
court was close to ruling on replacing the managing editor of 
the country's leading opposition television station with 
someone more amenable to the government.
    I met with a senior official to try to convince that 
individual to speak out in favor of maintaining critical voices 
in the media. To support my argument, I drew upon many of the 
OSCE principles, such as the importance of free speech to 
ensuring strong, accountable government. I then deployed what I 
thought was my strongest argument--that Tbilisi needed 
Washington's support, and that Washington would have a hard 
time understanding why the Georgian government wouldn't support 
keeping its critics on the air.
    The response was both illuminating and deflating. The 
official looked at me, smiled, and said: ``Really, Ian? You 
really think Washington will have a problem with fake news 
going off the air?''
    A few months after I left, the court did order new 
management at the station, and Georgia lost a critical platform 
for holding government accountable.
    Given what is happening here in the U.S., I can imagine how 
difficult it is for my former colleagues in the field now to 
promote human rights. With the recent abuse of police powers, 
and the characterization of journalists as ``enemies of the 
people'' over the last few years, diplomats' powers of 
persuasion have been greatly eroded.
    But they should still have hope in the power of American 
institutions.
    When I tell my students about my distress at my own 
government's abuses over the years, such as the CIA ``Black 
Sites'' and the torture at Abu Graib, they ask me how I was 
able to continue to work for such an administration. I tell 
them it's because of my deep belief in the system's ability to 
investigate abuse, correct itself, and ultimately do the right 
thing.
    While we look to right our own country's wrongs, we cannot 
avert our eyes from assaults on Helsinki principles elsewhere 
in the OSCE space. We should be particularly concerned about 
increasing centralization --and personalization--of political 
power. Just yesterday, Russia concluded a plebiscite on an 
amendment that could allow Putin to stay in power until 2036.
    And then there is the pandemic. It attacked at a time when 
democracy was already in retreat. Even before COVID-19, Freedom 
House noted that since 2006, democracy has been in decline in 
25 of 41 established democracies. The challenge of curbing the 
pandemic has emboldened authoritarian rulers. It has given them 
another excuse to curb fundamental rights, to remove 
institutional checks on their power, and silence those who 
dissent.
    As Dr. King wrote, ``Injustice anywhere is a threat to 
justice everywhere. We are caught in an inescapable network of 
mutuality, tied in a single garment of destiny. Whatever 
affects one directly, affects all indirectly.'' When we redress 
wrongs, we make our country stronger. We restore our position 
of leadership in a world where democracy needs champions. And 
by so doing, we make the world safer.
    Thank you, Mr. Chairman, for convening this hearing today.

                                 <all>


  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
